CERTIFICATE OF SERVICE
NO. 19-996
Lindsay Waters
Petitioner(s)
v.
Georgia
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the LINDSAY
WATERS AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S), by mailing three (3) true and
correct copies of the same by USPS Priority mail, postage prepaid for delivery to the following
addresses:
Gregory Allen Willis
Willis Law Firm
6000 Lake Forrest Drive
Suite 375
Atlanta, GA 30328
(404) 835-5553
allison@willislawga.com
Counsel for Lindsay Waters

Andrew Alan Pinson
Office of the Georgia Attorney General
40 Capital Square SW
Atlanta, GA 30334-1300
(404) 651-9453
apinson@law.ga.gov
Counsel for State of Georgia

Lucas DeDeus

March 11, 2020
SCP Tracking: Schielke-1209 Cleveland Ave-Cover Cream

